HHS/OIG-Audit--"Elimination of the Weighted Average Manufacturer Price Provisions of the Medicaid Outpatient Prescription Drug Rebate Program, (A-06-93-00070)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Elimination of the Weighted Average Manufacturer Price Provisions of the
Medicaid Outpatient Prescription Drug Rebate Program," (A-06-93-00070)
December 28, 1993
Complete
Text of Report is available in PDF format (793 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the weighted average manufacturer
price (WAMP) provisions of the Omnibus Budget Reconciliation Act (OBRA) of 1990
and its impact on the Medicaid outpatient prescription drug rebate program. The
WAMP provisions of OBRA 1990, scheduled to become effective on January 1, 1994,
were recently repealed by OBRA 1993. Our analysis showed that: (1) utilization
data needed to make WAMP calculations would not be available on a timely basis
and (2) WAMP calculations would be unpredictable and could have had a negative
impact on Medicaid drug rebate collections. The Health Care Financing Administration
(HCFA) agreed with our findings and pointed out that the WAMP provisions were recently
repealed by OBRA 1993, which was signed by the President on August 10, 1993. As
a result of the repeal of the WAMP provision no further action by HCFA is necessary.